IN THE

SUPREME COURT OF THE UNITED STATE 5

filed
OCT 0 2 2021

SANDS COOPER, PETITIONER
VS.

TRUMBULL INSURANCE COMPANY AND ADVANCED
INTERNET AUTOMATION, LLC, RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
VIRGINIA COURT OF APPEALS
AND
VIRGINIA WORKERS’ COMPENSATION COMMISSION

PETITION FOR WRIT OF CERTIORARI

Sands Cooper
797S Blooms Road
Manassas, VA 20111-2402
(703)369-6455
kingl960.sc@gmail.com

Received
OCT - 5 2021
luPREMEpTflfffiay

QUESTION(S) PRESENTED
1. Should the defendant be awarded for criminally entering a false document that was used by
the Court’s Officer as evidence as a result of attorney misconduct under Federal Rule of
Civil Procedure 60(b)?
2. Should a state court of appeals be responsible for refusing to new evidence upon appeal to
correct evidence entered by the Petitioner under Federal Rule of Civil Procedure 60?
Virginia Court of Appeals denied the Petitioner’s written review that included evidence of
the correct document that reflected the name of the petitioner’s company in a workers’
compensation case.
3. Should a judge be sanctioned when they willingly accepted a false document used in
rendering a court decision under Federal Rule of Civil Procedure 60(d)(3)? The judge
accepted a false document into evidence that did not represent the company on the docket
and was used in making the decision to deny workers’ compensation benefits.
4. Whether the merits of this case based on procedural defect require resolution by this Court?
As pro se, the petitioner was not granted the opportunity to correct the defects of his
petition to the Virginia Court of Appeals.
5. Should the U.S. Supreme Court stand up for citizens entitled to a fair trial?

LIST OF PARTIES

[ x ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of all parties to
the proceeding in the court whose judgement is the subject of this petition is as follows:

RELATED CASES

ii

TABLE OF CONTENTS
QUESTIONS PRESENTED

i

TABLE OF AUTHORITIES

u

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

.2

REASONS FOR GRANTING THE WRIT

3

CONCLUSION

6
INDEX TO APPENDICES

APPENDIX A Workers’ Compensation Commission Opinion, October 18, 2019

8

APPENDIX B Workers’ Compensation Commission Review, March 23, 2020

35

APPENDIX C Virginia Court of Appeals Opinion, December 15, 2020

41

APPENDIX D Virginia Court of Appeals Denial for Rehearing, February 9, 2021

42.

APPENDIX E Supreme Court of Virginia Opinion, May 5, 2021

44

APPENDIX F Supreme Court of Virginia Denial for Reconsideration, July 1, 2021

46

ui

TABLE OF AUTHORITIES

CASES
United States v. MacDonald, No. 87-5038, 1998 U.S. App. LEXIS 22073, at *6 (4th Cir. Sept. 8,
1998).................................................................
4
STATUTES AND RULES
Federal Rules of Civil Procedure, Rule 60(d)(3)

2

Va. Code §38.2-2226

5

Va. Code § 58.1-301

5

/v

OPINIONS BELOW
In an unpublished opinion rendered December 15, 2020, the Virginia Court of Appeals
affirmed a lower court’s decision by stating the petitioner’s appeal was without merit.
Petitioner respectfully prays that a writ of certiorari is issued to review the judgment
below.
[ x ] A timely petition for rehearing was thereafter denied on the following date July 1, 2021
and a copy of the order denying rehearing appears at Appendix F.
JURISDICTION
This Court has jurisdiction under 28 U.S.C. 1257(a).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Va. Code § 38.2-2226. Insurer to give notice to claimant of intention to rely on certain defenses
and of execution of nonwaiver of rights agreement.
Whenever any insurer on a policy of liability insurance discovers a breach of the terms or
conditions of the insurance contract by the insured, the insurer shall notify the claimant or the
claimant’s counsel of the breach. Notification shall be given within forty-five days after
discovery by the insurer of the breach or of the claim, whichever is later. Whenever, on account
of such breach, a nonwaiver of rights agreement is executed by the insurer and the insured, or a
reservation of rights letter is sent by the insurer to the insured, notice of such action shall be
given to the claimant or the claimant’s counsel within forty-five days after that agreement is
executed or the letter is sent, or after notice of the claim is received, whichever is later. Failure to
give the notice within forty-five days will result in a waiver of the defense based on such breach
to the extent of the claim by operation of law.
Notwithstanding the provisions of this section, in any claim in which a civil action has been filed
by the claimant, the insurer shall give notice of reservation of rights in writing to the claimant, or
if the claimant is represented by counsel, to claimant's counsel not less than thirty days prior to
the date set for trial of the matter. The court, upon motion of the insurer and for good cause
shown, may allow such notice to be given fewer than thirty days prior to the trial date. Failure to
give the notice within thirty days of the trial date, or such shorter period as the court may have
allowed, shall result in a waiver of the defense based on such breach to the extent of the claim by
operation of law.
Va. Code § 58.1-301. Conformity to Internal Revenue Code. A. Any term used in this chapter
shall have the same meaning as when used in a comparable context in the laws of the United
States relating to federal income taxes, unless a different meaning is clearly required.

1

Federal Rules of Civil Procedure, Relief from a Judgment or Order Rule 60(b)(d)(3).
(b) Grounds for Relief from a Final Judgment, Order, or Proceeding. On motion and just
terms, the court may relieve a party or its legal representative from a final judgment, order, or
proceeding for the following reasons:
(1) mistake, inadvertence, surprise, or excusable neglect;
(2) newly discovered evidence that, with reasonable diligence, could not have been
discovered in time to move for a new trial under Rule 59fbk
(3) fraud (whether previously called intrinsic or extrinsic), misrepresentation, or misconduct
by an opposing party;
(4) the judgment is void;
(5) the judgment has been satisfied, released, or discharged; it is based on an earlier
judgment that has been reversed or vacated; or applying it prospectively is no longer equitable;
or
(6) any other reason that justifies relief.
(d) Other Powers to Grant Relief. This rule does not limit a court’s power to:
(1) entertain an independent action to relieve a party from a judgment, order, or proceeding;
(2) grant relief under 28 U.S.C. §1655 to a defendant who was not personally notified of the
action; or
(3) set aside a judgment for fraud on the court.
STATEMENT OF THE CASE
Prior Proceedings. The petitioner (Sands Cooper) filed for workers’ compensation
benefits on June 28, 2016 for a work-related injury with The Hartford/Trumbull Insurance
Company. The petitioner, the owner of Advanced Internet Automation, LLC held a worker’s
compensation policy with this insurance company which was effective June 29, 2015 to June 29,
2016. The petitioner is seeking benefits covered under the Virginia Workers’ Compensation
Act: Wage Loss Replacement/ Temporary Disability for medically authorized disability from
work from June 12, 2016; and Lifetime Medical Benefits for expenses paid out of pocket for all
medical and prescriptions.
The petitioner’s claim was denied by the Claim Administrator (Trumbull Insurance
Company) September 2, 2016, while he was still seeking treatment and surgeries required to treat

2

severe injuries as a result of the accident. The Claim Administrator indicated the reason for the
denial was “No Causal Relationship - No medical evidence of injury and specific explanation
provided.” The petitioner was still being treated for severe injuries that were aggravated by the
accident. The petitioner’s request for a hearing was filed with the Virginia Workers’
Compensation Commission dated March 23, 2017.
Evidentiary hearings were held on January 23, 2019 and May 3, 2019 before the Virginia
Workers’ Compensation Commission. The workers’ compensation insurance carrier, Trumbull
Insurance Company contested the petitioner’s benefits on behalf of the Employer (Advanced
Internet Automation, LLC). The claimant’s benefits were denied in an opinion rendered October
18, 2019 that the accident was not compensable, in that it did not arise in or out of the course of
employment.
This matter came before the Commission for review dated January 8, 2020 pursuant to
the Claimant’s claim for benefits for injuries sustained in a work-related accident on June 12,
2016 of his neck, back, two ribs, head, brain, including a concussion, teeth, and right leg. By
opinion rendered March 23, 2020, the full Commission affirmed the deputy commissioner’s
opinion dated October 18, 2019. Following the Commission’s decision, the claimant noted his
appeal to the Court of Appeals. Claimant was on business travel which is a function of his job
duties. Claimant was traveling to look at a property for sale to expand his business interests.
Travel is integral to claimant’s employment because he does not work from a fixed office, which
makes him exempt from the coming and going rule. Given that the Commission failed to
consider all of the evidence and relied solely on false evidence to determine if the claimant was
in the course of employment during the accident. In addition, there was a refusal to compel the

3

opposing counsel to submit the “actual policy” into evidence which states the claimant's
business purpose versus the false evidence of a company that is not in business.
REASONS FOR GRANTING THE PETITION
The decision of the lower court was erroneous and require federal review in the interest
ofjustice. The lower court has willingly accepted as evidence a document that was fraudulent.
The Federal Rule of Civil Procedure 60 does not limit a court’s power to set aside a judgment for
fraud on the court." Specifically, Rule 60 (b) and Rule 60(d)(3) is the codification of a court's
inherent power to investigate whether a judgment was obtained by fraudulent conduct," United
States v. MacDonald, No. 87-5038, 1998 U.S. App. LEXIS 22073, at *6 (4th Cir. Sept. 8,1998).
FRCP Rule 60(b) provides that the court may relieve a party from a final judgment and
sets forth the following six categories of reasons for which such relief may be granted: (1)
mistake, inadvertence, surprise, or excusable neglect; (2) newly-discovered evidence which by
due diligence could not have been discovered in time to move for a new trial under Rule 59; (3)
fraud, misrepresentation, or misconduct by an adverse party; (4) circumstances under which a
judgment is void; (5) circumstances under which a judgment has been satisfied, released, or
discharged, or a prior judgment upon which it is based has been reversed or otherwise vacated, or
it is no longer equitable that the judgment should have prospective application; or (6) any other
reason justifying relief from the operation of the judgment. F.R.C.P. Rule 60(b)(l)-(b)(6). To be
entitled to relief, the moving party must establish facts within one of the reasons enumerated in
Rule 60(b).
As a pro se litigant, I was denied the right of after-discovered evidence and that “fraud,
accident, or mistake” prevented the petitioner from obtaining the benefit of the claim. If the
lower court had allowed the correct document in the record, the outcome of my case would have
been ruled in the petitioner’s favor. My mental capacity was compromised by the injuries that I
4

sustained from a work-related motor vehicle accident on June 12, 2016 which is the basis of my
claim. Hearings were held by the Commission and I contend that in my testimony before the
Commission, medical evidence was presented but not considered in the lower court’s judgment
regarding my memory loss due to post-concussion syndrome and prolonged use of pain
medication, as a result of four surgeries performed due to my work-related accident. From the
concussion from the accident to my recovery, I was not competent to stand trial, which I
conveyed during the first hearing. Nonetheless, the deputy commissioner determined that I was
competent and further implied that she did not want to have to explain these circumstances if the
case comes before a review with the Full Commission. It is for these reasons stated above that
my case be granted this petition.
In the Petitioner’s written review dated January 8, 2020, he reported the illegal
appointment of an attorney to represent his company, Advanced Internet Automation, LLC. The
defendant, Trumbull Insurance Company retained an attorney to contest the claim, however,
failed to give written notice to the insured (the employer) of their intent to rely on certain
defenses to avoid its obligation to award compensation under the claim pursuant to Va. Code §
38.2-2226. As the sole proprietor of Advanced Internet Automation, LLC, the Petitioner was
insured by The Hartford/Trumbull Insurance Company and was not given notice that the insurer
intended to contest coverage of the claim. According to the Internal Revenue Service Code §
7701, my company, Advanced Internet Automation, LLC is a “disregarded entity,” meaning that
Sands Cooper is a sole proprietor, and that Sands Cooper and his company are one in the same,
not a separate entity. Virginia’s conformity to federal law is set forth by Va. Code § 58.1-301,
therefore, trumps the state law of an individual entity, such as the limited liability company.

5

Therefore, as a sole proprietor, I have the right to hire my own attorney as the employer,
Advanced Internet Automation, LLC in this case.
On January 8, 2020, the Petitioner filed a review to the Full Commission of the Virginia
Workers’ Compensation Commission. Petitioner reported fraud on the court. For this cause, I
filed a judicial review complaining that the deputy commissioner knowingly and willingly
accepted a false document into evidence. The consequences of filing that complaint to the
Judicial Review Board explains why the Commission, and the Appellate Court was so hostile to
my plea to correct the record because the evidence clearly demonstrated that the defendants
submitted a false document to the Commission which was entered as evidence by the
Commission. The Full Commission and the Appellate Court refused to accept corrected
documents from the Petitioner and based their decisions upon an act of criminal and misconduct
of a false document presented by the defense as tampered evidence resulting injudicial
misconduct. The Court’s refusal to correct the record resulted in a decision made on false and
tampered evidence. The deputy commissioner accepted a false document from the defendants as
evidence which was used in the decision to deny my claim. This document states on its face that
the name of the company listed on the document was not the company insured by Trumbull
Insurance Company or listed on the Commission’s docket, which led to the claim being denied.
Pursuant to Rule 60 of the Federal Rules of Civil Procedure, Petitioner asserts this
fraudulent inducement was to deceive the Appellate Court to avoid awarding the Petitioner’s
compensation under the claim. Judicial misconduct was committed, in which the Commission
knowingly received a false document from the defendants. The defendants have admitted to
knowingly submitting a false document to the lower court in their opposition to the petition filed
on March 30, 2021 to the Supreme Court of Virginia.

6

CONCLUSION
The Court should grant this petition for a writ of certiorari.
Respectfully submitted,
SANDS COOPER
Pro se

Sands Cooper
7978 Blooms Road
Manassas, VA 20111-2402
(703) 369-6455 (Home)
(703) 369-6455 (Fax)
kingl960.sc@gmail.com

7

